Supreme Court, U.S.
FILED

WAIVER

JUN 1 6 2020
OFFICE OF THE CLERK

Supreme Court of the United States
No. 19-1317

Efrain Areizaga
(Petitioner)

v.

ADW Corporation
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
J

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature is/ John R. Herring
Date: June 15, 2020

(Type or print) Name ohn R. Herrin
El Mr.
❑ Ms.

❑ Mrs.

❑ Miss

Firm Norton Rose Fulbright US LLP
Address 2200 Ross Ave., Ste. 3600
City & State Dallas. Texas

Zip ......75201

Phone 214-855-8000
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Mr. Efrain Areizaga
4241 Rufe Snow Drive, Apt. 1423
North Richland Hills, Texas 76180

RECEIVED
JUN 19 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

A

NORTON ROSE FULBRIGHT
June 16, 2020
Norton Rose Fulbright US LLP
2200 Ross Avenue, Suite 3600
Dallas, Texas 75201-7932
United States

Via FedEx
Clerk, Supreme Court of the United States
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Direct line +1 214 855 7159
john.herring@nortonrosefulbright.com
Tel +1 214 855 8000
Fax +1 214 855 8200
nortonrosefulbright.com

Efrain Areizaga v. ADW Corporation; No. 19-1317

Dear Clerk:
Please find enclosed a Waiver for filing with the papers in the above-referenced matter.
Please contact me with any questions. Thank you.
Very tru

Herring
m
sures
cc (w/encl):
Via CMRRR
Efrain Areizaga
4241 Rufe Snow Drive, Apartment 1423
North Richland Hills, TX 76180

RECEIVED
JUN 1 9 2020
OFFICE OF THE CLERK
SUPREME CQURT, U.S.

Norton Rose Fulbright US LLP is a limited liability partnership registered under the laws of Texas.

42924299.1

Norton Rose Fulbright US LLP, Norton Rose Fulbright LLP, Norton Rose Fulbright Australia, Norton Rose Fulbright Canada LLP and Norton Rose
Fulbright South Africa Inc are separate legal entities and all of them are members of Norton Rose Fulbright Verein, a Swiss verein. Norton Rose Fulbright
Verein helps coordinate the activities of the members but does not itself provide legal services to clients. Details of each entity, with certain regulatory
information, are available at nortonrosefulbright.com.

